No.
IN THE SUPREME COURT OF THE UNITED STATES

ELSIE MARINO, Consumer,
Petitioner,
v.
JEFFREY NADEL, doing business as Law Offices of Jeffrey Nadel;
SCOTT E. NADEL;
DANIEL MENCHEL;
MICHAEL MCKEOWN;
CALIBER HOME LOANS, INC.;
BANK OF NEW YORK MELLON, As Trustee For CIT Mortgage Loan
Trust 2007-1,
Respondents.

APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI TO THE
FOURTH CIRCUIT COURT OF APPEALS OF THE UNITED STATES

To the Honorable John G. Roberts, Jr., Chief Justice of the United
States and Circuit Justice for the Fourth Circuit:
Unrepresented Petitioner Elsie Marino ("Petitioner") respectfully
requests a 60-day extension of time to file a petition for certiorari in this
Court to and including Thursday, October 10, 2019. The Fourth Circuit
rendered its decision in Appeal No. 18-2283 on April 3, 2019 (Attachment A)
and denied a timely petition for rehearing en banc on May 13, 2019
(Attachment B). Thus, Petitioner's time to petition for certiorari in this Court
expires Sunday, August 11, 2019. This application is being filed more than 10

RECL,
1

JUL 2 9 2Crb9
O
SUPREMECTHE
OURTU.S.
TUSK

days before that date. The jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).
Petitioner's daily occupation is caring for newborns as a Registered
Nurse. Petitioner respectfully requests an extension of time to file a petition
for certiorari due to the added press of timely defending against foreclosure of
her home at the same time in Carrie M. Ward, et al vs. Elsie Marino, et al,
Case No. 433888-V, Circuit Court of Montgomery County, Maryland.
Petitioner is unrepresented in the foreclosure action also and has been
devoting time and resources preparing and filing a Md. Rule 12-411 motion to
stay any sale and dismiss the action, and replying to opposition. Petitioner
was granted a hearing on June 27, 2019 but the Maryland court denied relief.
On July 8, 2019, Petitioner filed a Md. Rule 2-534 Ten-Day Motion for
Reconsideration which will again necessitate her reply to any opposition.
Petitioner seeks review because this case involves two questions of
exceptional importance: this case presents a legal conflict where the panel
decision did not correct the district court's application of an improper
construction of the Fair Debt Collection Practices Act ("FDCPA"), 15 U.S.C.
§§ 1692 et seq., according to its terms. To quote from the petition for
rehearing en banc:
The first important question is whether a bank that
receives transfer or assignment of a debt solely as trustee for
beneficial interest holders in order to bring a foreclosure action,
is facilitating collection "for another" within the exception to the
term "creditor" in § 1692a(4).

The second important question, concerning debt collectors'
prohibited third party contacts with narrow exceptions under
§ 1692c(b), is whether, in the absence of any alleged judgment or
other affirmative defense at the motion to dismiss stage, "the
filing of an action to foreclose is a necessary precedent to
reaching a postjudgment judicial remedy, so communications
with a court that are necessary to maintain that foreclosure
action do not violate § 1692c(b)." The district court concluded so,
contrary to the text and structure of the FDCPA, rendering
§§ 1692i(b), § 1692c(b)'s exception "or as reasonably necessary to
effectuate a postjudgment judicial remedy," and specifically the
word "postjudgment" superfluous, void, or insignificant.
Wherefore, Petitioner Elsie Marino respectfully requests that an order
be entered extending her time to petition for a writ of certiorari to and
including Thursday, October 10, 2019.
Respectfully submitted,

Alk(itAk
Elsie Marino
12701 Darnestown Road
Gaithersburg, MD 20878
Email: emarino50@gmail.com

3

